IN THE
SUPREME COURT.OF THE UNITED STATES
C’-'Tl

IN RE TOMMY LEE RUTLEDGE
PETITIONER

\' : ■

1

v

nn
1

• I":

i

j

PETITION TO ISSUE A WRIT OF MANDUMUS
TO ENFORCE A MANDATE OF THIS COURT

TO THE DISTRICT COURT OF THE CENTRAL DISTRICT OF ILLINOIS

FILED
AUG 3 1 2021
TOMMY LEE RUTLEDGE - 08829-026
MEDICAL CENTER FOR FEDERAL PRISONERS
P.O. BOX 4000
SPRINGFIELD, MO 65801-4000

OFFICE OF THE CLERK
SUPREME COURT. U.S. I

PRISONER, NO TELEPHONE

AUG 3 I 2021

i

QUESTION PRESENTED
When a District Court Judge has executed a mandate of the United States
Supreme Court by vacating a charge and its sentence, can that same Judge
reinstate that vacated charge and sentence 2-years and 3 months after he had
obeyed the Court's vacatur order?

/

TABLE OF CONTENTS
QUESTION PRESENTED
JURISDICTION
DECLARATION AND MOTION TO PROCEED IN FORMA PAUPERIS
TABLE OF STATUTES
CONSTITUTIONAL CITATIONS
TABLE OF AUTHORITIES
DECISION OF SUPREME COURT, 517 US 292 (1996)
INDEX TO APPENDICES
INDEX TO EXHIBITS
PETITION TO ISSUE A WRIT OF MANDAMUS TO ENFORCE A MANDATE OF THIS COURT
PROOF OF SERVICE

• •
• ••
ill

iv
v
vi
vii
viii
ix
1
14

STATEMENT OF JURISDICTION
JURISDICTION
JURISDICTION IS INVOKED PURSUANT TO 28 U.S.C. § 1651.
THE ACT TO ESTABLISH THE JUDICIAL COURTS OF THE UNITED
STATES AUTHORIZES THE SUPREME COURT TO ISSUE WRITS OF
MANDAMUS IN CASES WARRANTED BY THE PRINCIPLES AND
USAGES OF LAW, TO ANY COURTS APPOINTED, OR PERSONS
HOLDING OFFICE, UNDER THE AUTHORITY OF THE UNITED
STATES.” MARBURY V. MADISON, 1 CRANCH 137. 178. 2
L. ED. 60T1803;.

//

TABLE OF STATUTES
18 U,S.C. § 922

1,9

18 U.S.C. § 924

1

21 U.S.C. § 841

1

21 U.S.C. § 848

1

21 U.S.C. § 846

1

28 U.S.C. § 1651

1,11

28 U.S.C. § 2241

6,7'

28 U.S.C. § 2255

2,4,6,7,8

928 U.S.C. § 262 (1911) (NOW 28 U.S.C. 1651 (1948))

/V

11

CONSTITUTIONAL CITATIONS
ARTICLE 1, SECTION, 9, CLAUSE 2

7

FIFIHAMENDMENT

7

DECLARATION OF INDEPENDENCE

10

V

TABLE OF AUTHORITIES
ALBRECHT V. THE HERALD CO., 390 US 145 (1968)
BALL V. UNITED STATES, 470 US 856 (1985)

6,11
3-4-

CHENEY V. UNITED STATES DIST. COURT, 542 US 367 (2004)

11

DE BEERS CONSOL, MINES V. UNITED STATES, 325 US 212 (1945)

11

DELAWARE, L & W.R. CO. V. BELL STAG, 276 US 1 (1928)
DEPT. OF HOMELAND SEC. V. THURAISSIGIAM, 207 L. WD 427 (2020)

9
7,8

EXPARTE REED, 100 US 13 (1879)

6

FAY V. NOIA, 372 US 391 (1963)

7

FEDERAL C.C. V. POTTSVILLE BROAD CASTING CO.
FOUCHA V. LOUISIANA, 504 US 71 (1992)

12
7,9

GLASSER V. UNITED STATES, 315 US 60 (1942)

12

GULF, C & S.F. CO. V. ELLIS, 165 US 150 (1897)

10

ILLINOIS V. GATES, 462 US 213 (1983)

12

HUTTO V. DAVIS, 454 US 370 (1982)

5J11

INS V. ST. CYR, 533 US 289 (2001)

7

KANSAS CITY S.R. CO. V. GUARDIAN TRUST, 281 US 1, (1930)

12

KIMMELMAN V. MORRISON, 477 US 365 (1986).

12

MARBURY V. MADISON, 1 CRANCH 137 (1803)
MCDONAL V. UNITED STATES, 335 US 451 (1984)

1,9
12

NASH ("CORNETT") V. WILLIAMS, 20 WALL. 226 (1874)

6

RE METROPOLITAN TRUST CO., 218 US 312 (1910)

9

RE SANFORD FORK & TOOL CO., 160 US 247 (1891)

12

ROCHE V. EVAPORATED MILK ASS'N, 319 US 21’(1943)

11

RUTLEDGE V. UNITED STATES, 22 F.SUPP. 2D 871 (C.D. IL 1998)
RUTLEDGE V UNITED STATES, 517 US 292 (1996)
SIBBALD V. UNITED STATES,,12 PETERS 488 (1838)

1n

2,3,4,6,8,
2,3,4,5,8,9,12
5,9,10,11

TABLE OF AUTHORITIES
STATE OIL V. KAHN, 522 US 3 (1997)

6

THURSTON MOTOR LINES V. RAND. 460 IS 533 (1983)

6

UNITED STATES V. RUTLEDGE, 40 F.3D 879 (7TH CIR 1994)

2,3

WEEKS V. UNITED STATES, 252 US 383 (1914)

12

WILL V. UNITED STATES, 389 US 90 (1967)

10.

WINDSOR V. MCVEIGH, 93 US 274 (1876)

6

ZADVYDAS V. DAVIS, 533 US 678 (2001)

7,9

1/7-4

IN THE SUPREME COURT
OOF THE UNITED STATES OF AMERICA
WASHINGTON, D.C.
IN RE: TOMMY LEE RUTLEDGE )
PETITIONER )

PETITION TO ISSUE A WRIT OF MANDAMUS
TO ENFORCE A MANDATE OF THIS COURT
JURISDICTION
Jurisdiction is invoked pursuant to 28 U.S.C. § 1651.,
"Hie Act to establish this judicial courts of the United States authorizes
the Supreme Court to issue writs of mandamus in cases warranted by.the prin­
ciples and usages of law, to any courts appointed, or persons holding office,
under the authority of the United States.” Marbury v. Madison, 1 Cranch 137,
2 Led. 60 (1803).
HISTORY OF THE CASE
Rutledge and three individuals were initially convicted of conspiring
to distribute cocaine, in violation of 21 U.S.C. § 846. Rutledge was also
convicted of conducting a continuing criminal enterprise, 21 U.S.C. 848;
distribution of cocaine in violation of 21 U.S.C. § 841(a)(1); possession
of a firearm by a felon in violation of 18 U.S.C. § 922(g); and two counts
of using or carrying a firearm during the commission of a drug felony, in
violation of 18 U.S.C. § 924(c).
The Court sentenced Rutledge to life in prison on this continuing
criminal-enterprise charge (Count 1); life without the possibility of release
on the conspiracy to distribute narcotics charge (Count II); and life
1.

imprisonment without the possibility of release on the distribution count
(Count III). The Court sentenced Rutledge to 10 years on Count IV, possession
of a firearm by a felon. The judge ordered that the three life sentences and
the 10-year term were to run concurrently. The judge further sentenced
Rutledge to 5-years on Count V and to 10-years on Count VI, both for being
an armed drug trafficker and ordered the two latter Counts to run consecut­
ively to one another, and to the other charges.
Rutledge filed a direct appeal with the Seventh Circuit Court of Appeals;
The Seventh Circuit denied the appeal and affirmed, United States v. Rutledge.
40 F.3d 879 (7th Cir. 1994).
Rutledge filed for a writ of certiorari and it was granted, Rutledge
v. United States. 517 U.S. 292, 116 S. Ct. 1241, 134 L. Ed 2d 419 (1996).
The Supreme Court, in a unanimous decision delivered by Mr. Justice Steven's,
held that the conspiracy to distribute controlled substances (Count ll) is a
lesser included offense of Count I, the continuing criminal enterprise charge.
The Supreme Court remanded the case and ordered that either Count I, the
continuing criminal enterprise count, or Count II, the conspiracy count be
vacated. The district court judge chose to vacate Count II, the conspiracy
Count II. (Ex. 2); Rutledge v. United States. 22 F.Supp. 2d 871, 874 (1998).
On April 24, 1997Rutledge filed a timely motion pursuant to 28 U.S.C.
§ 2255, The court appointed counsel to represent him on November 12, 1997;
counsel filed a supplement on March 26, 1998. The 2255 was granted in part
and denied in part; 22 F.Supp. 2d at 885. Judge Mihm ordered that:
"In conclusion. Count I (CCE) is vacated. Count II
(conspiracy to distribute) is reinstated. Count III,
(distribution) remains viable, but the sentence im­
posed should be reduced to 30 years. Count IV (felon
in possession of a firearm) remains. Count V (armed
drug trafficker) is vacated but can be retried.
2.

Count VI (armed drug trafficker) is vacated" 22
F.Supp. 2d at 885.
Judge Mihm was obligated by law to vacated Count I, the continuing
criminal enterprise and that forced decision did not sit well with him, for
he also had to reduce the one remaining life-sentence from life to 30-years.
The Judge reached back in time; he reached back 2-years and 3-months to the
conspiracy count this Court had ordered to be vacated, (the judge was given
the option of vacating Count I, the continuing criminal enterprise count,
Count I, or the Count II, conspiracy count; the judge chose to vacate Count
II). The Judge, without jurisdiction or authority of the Supreme Court, re­
instated the conspiracy count he had vacated 2-years and 3-months earlier.
After the Seventh Circuit affirmed the direct appeal, United States v.
Rutledge, 40 F.3d 879 (7th Cir. 1994). The Supreme Court granted certiorari
and the Court reviewed the issue presented, in 517 U.S. 292, 307, 116 S. Ct.
1241, 134 L.Ed. 2d 419 (1996).
ARGUMENT
The Supreme Court, in a unanimous decision delivered by Mr.. Justice
Stevens; Court held that conspiracy to distribute controlled substances
(Count II) is a lesser included offense of the continuing criminal enterprise
charge (CCE)(Count I). This Court reversed the Seventh Circuit and remanded
the. case. The Court mandated that either the continuing criminal enterprise
charge (Count I) or the conspiracy to distribute controlled substances
(Count II), be vacated. Rutledge, 517 US 307.
The Court held that one of Petitioner's convictions, as well as its
concurrent sentence, "is vacated under Ball," 470 US 856, at 84 LEd 2d 740,
3.

105 S. Ct. 1668 (1985). Holding in brief part, Rutledge, supra.
"A guilty verdict on a § 848 charge necessarily includes
a finding that the defendant also participated in a con- .
spiracy violative of § 846; Conspiracy is therefore a.
lesser included offense of CCE. Because the Government's
arguments have not persuaded us otherwise, we adhere to
the presumption that Congress intended to authorize only
one punishment. Accordingly, n[0]ne of [Petitioner's]
convictions, as well as its concurrent sentence, is un­
authorized punishment for a separate offense "and must
be vacated," Ball v. United States, 470 U.S. 856, 864,
84 Led 2d. 740, 105 S. Ct. 1668 (1985). The judgement
of the Court of Appeals is reversed, and the case is
remanded for further proceedings consistent with this
opinion, it is so ordered," Rutledge v. United States,
517 U.S. 292, 307, 116 S. Ct. 1241, 134 L. Ed 2d 419
(1996).
The district court judge followed the Supreme Court mandate, initially;
in its opinion of September 25, 1998, the district court judge said, "This
Court vacated Count II on May 29, 1996." Rutledge v. United States, 22 F.Supp.
2d 871, 874 (C.D. Ill. 1998). (ex.2).
Two-years and three months after the district court carried out the
Supreme Court's order to vacate Count I or II, the Court, having vacated
Count II (conspiracy), heard Rutledge's 28 U.S.C. § 2255, petition. It had
been timely filed on April 24, 1997. The Court-appointed counsel filed a
supplement to the 2255 on March 26th, 1998. The district court granted
the motion in part and denied it in part; 22 F.Supp. 2d 885.
The judge ordered that:
"In conclusion, Count I (CCE) is vacated. Count II
(conspiracy) to distribute is reinstated. Count III
(distribution) remains viable, but the sentence im­
posed should be reduced to 30-years. Count IV (felon
in possession of a firearm) remains. Count V (armed
drug trafficker) is vacated but can be retried. Count
VI (armed drug trafficker) is vacated." 22 F.Supp. 2d
885. (ex.3).
4.

It is Count II, Ante, that keeps Rutledge unconstitutionally confined
in prison. When this Court remanded the case it ordered that either the
continuing criminal enterprise charge, Count I, or the conspiracy count,
Count II, had to be vacated, however, the choice of which one of those
charges would be vacated, was left for the judge to decide. The district
judge elected to vacate Count II aud he did that, ante; (ex.2).
The district Court judge did not have authority nor the jurisdiction
to reverse the decision of the Supreme Court.
"But unless we wish anarchy to prevail within the
federal judicial system, a precedent of this Court
must be followed by the lower federal courts no
matter how misguided the judges of those courts
may think it to be." Hutto v. Davis, 454 US 370,
375, 102 S. Ct. 703, 70 L.Ed 2d 556 (1982).
When the Supreme Court have executed their power in a
case before them, and their final decree of judg­
ment requires some further act to be done, it can­
not issue an execution, but shall send a special
mandate to the court below to award it, 24 sec.
Judiciary Act. I Story's laws, 61. Whatever was
before the Court, and is disposed of, is considered
as finally settled, The inferior court is bound by
the decree as the law of the case, and must carry it
into execution according to the mandate. They cannot
very (sic) it, or examine it for any other purpose
than execution, or give any other or further relief,
or review it upon any matter decided on appeal for
error apparent, or intermeddle with it, further
than to settle so much as has been remanded."
Sibbald v. United States, 12 Peters 488, 492, 9 Led
1167 (1838).
No court has the jurisdiction, nor the authority, to resurrect a charge
that was vacated by Supreme Court decree, nor to sua sponte, reinstate that
vacated charge on no more than a whim. Yet, two-years and three-months after
that vacated conspiracy count, Count II was vacated by Supreme Court mandate,
Rutledge, 517 US at 307, the judge disregarded the Court's order and reins5.

tated that count, Rutledge v. United States, 22 F.Supp. 2d. 871, 885. (ex2,3).
"Needless to say, only this Court may overrule one of its
precedents." Thurston Motor Lines v. Rand, 460 US 533, 535,
103 S. Ct. 1343, 75 L.'Ed 2d 260 (1983).
"The Court of Appeals was correct in applying that
principle despite disagreement with Albrecht [Alb­
recht v. The Herald Co.. 390 U.S. 145T1968)] for
it is the Court's prerogative alone to overrule one
of its precedent's," State Oil Co. v. Khan, 522 US 3,
20, 118 S. Ct. 275, 139 L. Ed 2d 19999 (1997).
The district court did not have jurisdiction to set aside a Supreme
Court decision, regardless of the time elapsed between vacatur and rein­
statement of the Court.
"Every act of a court beyond its jurisdiction is void.
Nash ("Cornett") v. Williams, 20 wall, 226, 22 L. Ed 254
U874J' Windsor v. McVeigh, 93 US 274, 23 L.Ed 914 (1876);
7 Writ, Act, and Def, 181," Exparte Reed, 100 US 13, 23.
25 Led 538 (1879).
-------------.
.
Rutledge has exhausted remedies in this matter
Rutledge first filed a motion in the Seventh Circuit Court of Appeals,
Pursuant to 28 U.S.C. § 2106 and 28 U.S.C. § 2241. That motion never reached
a judge for the clerk's office "trashed" the motion instructing Rutledge to
file in the district where he is. (App. A)
As instructed to do, Rutledge refiled under 28 U.S.C. § 2241 in the
Western District of Missouri, (App. B). The Western District of Missouri
decided not to hear the 28 U.S.C. § 2241, reclassified the petition as a
28 U.S.C. § 2255; and then transferred the case to the original trial' court,
the district court for the Central District of Illinois. (App. b).
Rutledge was not heard by the Seventh Circuit Court of Appeals because
the person in the clerk's office denied Rutledge access to the Court by
. 6.

refusing to file it. The question of legal jurisdiction was a question of law
the court ought to have decided that, not an individual in the clerk's office.
As Rutledge was instructed to do by the clerk's office, Rutledge refiled
the petition as a 28 U.S.C. § 2241, petition in the district court of Western
Missouri, (App. B). The district court for western Missori transperred this
case to the district court for the Central District of Illinois.
The Chief Judge denied the renamed petition that had been transferred
to the Central District of Illinois. The judge sternly repremanded Rutledge
for filing "another" 2255. Of course, that was not Rutledge's doing; He filed
a 2241, a remnant of Article 1, Sect. 9. CL.2 of the Constitution.
"The Fifth Amendment's Due Process Clause forbids the
Government to "Depriv[e]" any person ... of ... liberty
without due process of law." Freedom from imprisonment
from Government custody, detention, or other forms of
phusical restraint-lies at the heart of the liberty
that clause protects. See Foucha v. Louisiana, 504 US
71, 80, 118 L. Ed 2d 437, 112 S. Ct. 1780 (1992)."
Zadvydas v. Davis, 533 US 678, 690, 121 S. Ct. 2491,
150 L. Ed 2d 653 (2001).
"For its function has been to provide a prompt and
efficacious remedy for whatever society deems to be
intolerable restraints, its root principle is that in a civilized society, Government must always be
accountable to the judiciary for a man's imprison­
ment: If the imprisonment cannot be shown to conform
with fundamental requirements of the law, the indivi­
dual is entitled to his immediate release. Thus there
is nothing novel in the fact that today Habeas Corpus
in the federal courts provides a mode for the denials
of due process of law. Vindication of due process is
precisely its historic office." Fay v. Noia, 372 US
391, 401, 402, 83 S. Ct. 822, 9 L. Ed. 2d 837 (1963).
"This Court has held that at a minimum, the clause
"Protects the writ as it existed in 1789" when the
constitution was adopted. INS v. St. Cyr, 533 US
289, 301, 121 S. Ct. 2271, 150 L. Ed 2d 347. Habeas
has traditionally provided a means to seek release
7.

from unlawful detention." Dept, of Homeland Sec,
v. Thuraissigiam, 591 US , 140 S. Ct. 207 L. Ed
Id 427,
(2020).
~
The Petitioner, Rutledge, has run out of options, he has sought to law­
fully find just relief within the courts, however, he lias been denied due
process, the right to be heard.
Rutledge is being held without a lawful charge, without indictment or
trial; Has served his lawfully imposed sentences and has no other lawful
charges. He ought to be freed now.
THE PLEA FOR MANDAMUS AND BRIEF RECAP
Rutledge respectfully represents that he has demonstrated that this
Court granted certiorari in this case in 1996. In deciding the case the
Court remanded it and ordered that either Count I or Count II must be vacated.
Rutledge, 517 US 307. Subsequently, Rutledge filed a -timely petition pursuant
to 28 U.S.C. § 2255, in the trial court on April 24, 1997.
The district court judge granted that 2255 in part and he denied it in
part. Rutledge, 22 F.Supp. 2d at 285. After bringing Rutledge's sentence into
compliance with the law, the 3-life sentences were no more. The judge vacated
Count I for lack of sufficient participants to comprise a continuing criminal
enterprise; This Court vacated Count II the conspiracy count; and the Court
reduced the life sentence it had imposed for Count III, from life to 30years. The judge was not finished he made an unconstitutional move, he re­
instated the conspiracy count formerly vacated by the district judge while
obeying the mandate in Rutledge, 517 US at 307.
At the conclusion of the 2255 hearing, Rutledge was left with the
8.

previously vacated charge, Count III, and a 10-year sentence for violating
§ 922(g), to run concurrently with the other charges.
The 30-year dispensing charge, Count III, has been fully served, as has
been the § 922(g) charge that ran concurrently with Count III. That leaves
the life sentence for conspiracy, Count II, that was vacated (ex.2) in
accordance with this Court's order. Rutledge. 517 US at 307; and which the
district court judge reinstated in defiance of the Supreme Court order.
Rutledge would have been released and would have been free now except
for the judge's failure to adhere to the law set down by this Court, 183
years ago, in Sibbald, supra.
"The Fifth Amendment's Due Process Clause forbids the
Government to "depriv[e]" any "person ... of'... liberty
without due process of law." Freedom from imprisonmentfrom Government custody, detention, or other forms of
physical restraint-lies at the heart of the liberty that
clause protects. See Foucha v. Louisiana. 504 US 71, 80,
118 L. Ed 2d 437, 112 S. CT. 1780 (1992)." Zadvydas v.
Pavis, 533 US 678, 690, 121 S. Ct. 2491, 150 L. Ed 2d 653

However strong may have been the convictions of the
district judge that injustice would be done by enforcing the judgment, he could not set it "aside on the
ground that the testimony of admitted perjurers was
perjured also at the second trial. The power of the
court to set aside its judgment ended with the term,"
Re Metropolitan Trust Co.. 218 US 312, 329, 54 LEd
1051, 1054, 31 Sup. Ct. Rep, 18/' Delaware, L & W.R.,
Co. v. Bell Stab, 276 US 1, 72 L.ED 439, 48 S. Ct. 203
(1928).
"The very essence of civil liberty consists in the.
right of every individual to claim the proctection/
of the law, whenever he receives an injury. One
of the first duties of Government is to afford that
protection," Marbury v. Madison, 1 Cranch 137. 163.
2 L.ed 60 (18037:

9.

In the Declaration of Independence our founders in terminating our
allegiance to the Crown, told the world:
We hold these truths to be self-evident, that all
men are'created equal, that they are endowed by
their creator with certain unalienable rights, that
among these are life, liberty, and the pursuit of
happiness." Gulf, C & S.F.R. Co. v. Ellis.. 165 IIS 150.
159, 160, 4 EEd 666 (1897).-------------While that declaration is not held out as law, those words do provide
the bedrock upon which the due process clause rests, in the Fifth amendment.
That amendment assures us that no one will be deprived of life, liberty, or
property without due process of law. The trial court judge had no regard for
due process when he disregarded the decree of the Supreme Court or when he
tf

1

sua sponte, reinstated count II the conspiracy charge he formerly vacated
in compliance with that mandate.
It is not disputed that the remedy of mandamus is a
drastic one, to be invoked only in extraordinary
situations." Will v. United States. 389 US 90. 95. 19
L.Ed 2d 305, 88 S.CT. 269 (1967).
This such an extraordinary situation: Rutledge is being held in prison
without a lawful charge, without a lawful sentence, on the arbitrary decision
of a district judge who took it upon himself to set aside the mandate of the
Supreme Court, two years and three months after he intially followed the
order of the Supreme Court, (ex. 2,3,). The judgments (those exhibits) show
the precise dates of the judge's actions. The judge did not have jurisdiction
i

to overrule a decision of this Court. Once he executed the mandate of the
Supreme Court the case was finlly closed, he could not reopen it. Sibbald,
12 Peters at 492.
The Court of Appeals was correct in applying that
10.

principle despite disagreement with Albrecht [Albrecht
v. The Herald Co., 390 US 145 (l968)~J'for it is this
Court's prerogative alone to overrule one of its precedents. State Oil Co. v. Khan. 522 US 3, 20, 118 S.
Ct. 275, 139 L.Ed 2d 199 (1997).
Thus, Rutledge turns to the Court to compel compliance,
"The traditional use of the writ in aid of Appellate
jurisdiction both at common law and in federal courts
has been to confine [the court against which mandamus
is sought] to a lawful exercise of its prescribed jur­
isdiction. Roche v. Evaporated Milk Assn, 319 US 21, 26,
87 L.Ed. 1185, 63 S. Ct. 938 (1943)." Cheney v. United
States Dist. Court, 542 US 367, 380, 124 S. Ct. 2576,
159 L.Ed 2d 459 (2004).
The federal district judge, the trial judge, had jurisdiction nor auth­
ority to do anytime but to carry the Supreme Court mandate to execution. Once
the mandate was executed, the case was finally closed, Sibbald, supra, 12
Peters at 492. Rutledge is not aware of any case in which a trial judge could
overturn the order of the Supreme Court and, thereby, reopen an Appellate
case closed in 1996. (ex.2).
"But unless we wish anarchy to prevail within the federal
judicial system, a precedent of this Court must be followed
by the lower federal courts no matter how misguided the
judges of those courts may think it to be." Hutto v. Davis,
454 US at 395.
"But when a court has no judicial power to do what it pur­
ports to do-when its action is not mere error but usurpa­
tion of power- The situation falls precisely within the
allowable use of § 262.* We proceed, therefore, to inquire
vhether the district court is empowered to enter the order
under attack." DE Beers Consol. Mines v. United States, 325
US 212, 217, -65 S.“"Ct. 1130, 89 L.Ed 1566 (.1945;.
The Supreme Court ought to note, that since the judge took it upon
himself to reinstate the formerly vacated Count II conspiracy charge,
* [928 U.S.C. § 262, March 3, 1911)] now 28 U.$',G. §. 1651 (06/2571948).
11.

Rutledge v. United States, supra, 517 US at 307, has been cited many times,
including 5 times by the current Supreme Court (According to a Lexis search).
The decision has been referenced in at least two law journals.
As far as Rutledge has determined, no other district court judge in the
history of this Court has successfully reversed a Supreme Court mandate.
"In the same vein, Glasser v. United States, 315 US 60, 86
Led 680, 62 S. Ct. 457 (1942), warned that "[s]teps inno­
cently taken may one by one, leap to the irretrievable
impairment of substantial liberties." Id. at 86, 86 Led
680, 62 S, Ct. 457," Illinois v. Gates. 462 US 213, 103
S. Ct. 2317, 76 Led 2d 527 (1983). (Justice Brennan with
whom Justice Marshall joins, dissenting).
"The Constitutional rights of criminal defendants are
granted to the innocent and the guilty alike."
Kimmelman v. Morrison. 477 US 365, 380, 106 S. Ct. 2574,
91 L.Ed 2d 305 (.1986,). See also, Weeks v. United States,
232 US 383, 392, 58 Led 652 (1914); McDonald v. United
States, 335 US 451, 453, 93 L.Ed 15311984).
"■hie mandate required the execution of the decree. The
district court could not vary it, or give any further
relief- Re Sanford Fork & Tool Co.. 160 US 247, 255, 40
LEd 414, 416, 16 Sup. Ct. Rep. 291 (1895)" (other citations
omittedO. Kansas City S.R. Co. v. Guardian Trust Co.. 281
US 1, 11, >4 LEd 659 (1930).--------------------------The Court of Appeals invoked against the commission the
familiar doctrine that a lower court is bound to respect
the mandate of an Appellate tribunal and cannot reconsider
questions which the mandate laid at rest. See, Re Sanford
Fork & Tool Co. , 160 US 247, 255, 256, 40 L.Ed
416,
417, 16 S, Ct. 291 (1891)." Federal C. C. v. Pottsville
Broad Casting Co., 309 US 134, 140, 84 L.Ed 656 (1946).
Wherefore Rutledge respectfully prays that this Court will grant this
writ of mandamus, and, further, order that Rutledge, now in prison without
a lawful statutorial or constitutional sentence, be released from custody
forthwith.

12.

Further Rutledge prays naught.
Date:

Respectfully submitted,

l&TWcf* ^\<jd£zAg>JL
Tommy Lee Rutledge^?
Petitioner

Tommy Lee Rutledge
08829-026, Unit 3-1
Medical Center For Federal Prisoners
P.0. Box 4000
Springfield, MO 65801 ^

13.

